Office of the Solicitor General
Office 614-466-8980
Fax 614-466-5087

September 14, 2021
Danny Bickell
Office of the Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Application to Extend Time to Respond to Petition in
Volkswagen Aktiengesellschaft, et al. v.
Ohio, ex rel. Dave Yost, Ohio Attorney General.,
Case No. 21-312

Dear Mr. Bickell:
The Attorney General of Ohio, pursuant to Rule 30.4, respectfully requests a
30-day extension of time in which to respond to the petition for writ of certiorari. This
extension would move the response date from Thursday, September 30, 2021, to
Monday, November 1, 2021 (October 30, 2021 falls on a Saturday).
Counsel seeks this extension to ensure that the respondents will have the
opportunity to address amicus briefs filed in support of the petitioners. This brief
delay will not prejudice any party.
Thank you in advance for your consideration of this request.
Respectfully yours,
Dave Yost
Attorney General of Ohio
/s/ Benjamin M. Flowers
Benjamin M. Flowers
Ohio Solicitor General
cc:

Robert J. Giuffra Jr., Petitioner’s Counsel

